   DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General

      Improved Administration Can Enhance U.S.
       Customs and Border Protection Classified
             Laptop Computer Security

               Unclassified Summary




        Office of Information Technology


OIG-06-64                           September 2006
                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




               Improved Administration Can Enhance U.S. Customs and Border
                      Protection Classified Laptop Computer Security

                                      Unclassified Summary
                                           OIG-06-64

We audited the Department of Homeland Security and its organizational components’ security
programs to evaluate the security and integrity of select government-issued laptop computers. The
report assesses the strengths and weaknesses of security controls over U.S. Customs and Border
Protection (CBP) classified laptop computers. Our objective was to determine whether CBP had
established and implemented adequate and effective security policies and procedures related to the
physical security of and logical access to its classified government-issued laptop computers. To
secure CBP data stored on classified government-issued laptop computers, we made three
recommendations to the Commissioner for CBP.
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
